              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
Chemical Safety Protocols at the
Pantex Plant




DOE/IG-0756                                February 2007
CHEMICAL SAFETY PROTOCOLS AT THE PANTEX PLANT


TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objective ..…………………………….   1

              Observations and Conclusions ………………………… 1


              DETAILS OF FINDINGS

              Background ………………………………………………. 2

              Fire Safety Concerns ...………………………………….      2

              Safety Warning Signs …………………………………...       4

              Eye Wash and Safety Shower ..………………………… 5

              Observation ………………………………………………              5


              RECOMMENDATIONS ………………………………...             7


              MANAGEMENT COMMENTS ………………………… 7


              INSPECTOR COMMENTS ……………………………..            7


              APPENDICES

              A. Scope and Methodology ……………………………..      8

              B. Management Comments……………………………           9
Overview

INTRODUCTION       The Pantex Plant (Pantex) mission includes, among other things,
AND OBJECTIVE      the assembly and disassembly of nuclear weapons and the
                   manufacturing and testing of non-nuclear high explosives. To
                   accomplish this mission, Pantex uses approximately 3,000
                   different kinds of hazardous chemicals. Effective management of
                   these chemicals is an important element in protecting the health
                   and safety of the Pantex workforce. BWXT Pantex (BWXT) is the
                   prime contractor that operates Pantex for the Department of
                   Energy’s (DOE’s) National Nuclear Security Administration. As
                   such, BWXT is responsible for managing the Pantex occupational
                   safety and health program.

                   To properly manage its hazardous chemicals, BWXT must follow
                   various safety and health regulations, including Occupational
                   Safety and Health Administration (OSHA) regulations, National
                   Fire Protection Association (NFPA) standards, and DOE orders
                   that are included in the BWXT prime contract.

                   The objective of this inspection was to determine if BWXT
                   implemented an effective chemical safety program.

OBSERVATIONS AND   We concluded that in most respects, BWXT implemented an effective
CONCLUSIONS        chemical safety program; however, we identified several areas that
                   needed improvement. Specifically, we found that:

                   •   A compressed gas facility that contained numerous flammable
                       chemicals lacked a fire extinguisher, as required by OSHA, and
                       a means to summon the fire department, as required by DOE;

                   •   Safety warning signs were not posted outside several facilities
                       that contained hazardous chemicals such as flammables and
                       explosives, as required by OSHA and the NFPA; and

                   •   An eye wash and a safety shower in a hazardous chemicals
                       storage building were not inspected, as required by Pantex
                       procedures.

                   We also observed significant discrepancies in the hazardous
                   chemicals inventory. For example, the database quantities of
                   acetic anhydride, ammonia, dimethyl sulfoxide, and hydrochloric
                   acid were significantly different than actual quantities.




Page 1                                                   Chemical Safety Protocols
                                                         at the Pantex Plant
Details of Findings


BACKGROUND            An August 10, 1992, Memorandum of Understanding
                      (Memorandum) between OSHA and DOE states that DOE
                      contractors must comply with applicable OSHA standards as well
                      as other safety and health requirements. DOE’s contract with
                      BWXT contains Safety Requirements Identification Documents
                      (S/RIDS) for safety and health and fire protection that BWXT must
                      follow. These S/RIDS apply to aspects of Pantex’ hazardous
                      chemicals protocols and cite the OSHA Memorandum as well as
                      numerous OSHA and NFPA standards and DOE orders as
                      applicable to BWXT.

                      According to OSHA, a hazardous chemical refers to any chemical
                      that is a physical or health hazard. A chemical that is a physical
                      hazard includes combustible liquids, compressed gases, explosives,
                      flammables, organic peroxides, oxidizers, or water-reactives. A
                      chemical that is a health hazard may cause acute or chronic
                      unhealthy effects in exposed employees. Health hazards include
                      carcinogens, corrosives, toxic chemicals, and irritants.

                      Hazardous chemicals examined during this Office of Inspector
                      General (OIG) review included acids, bases, other corrosives,
                      flammable and combustible liquids, compressed gases, toxics, and
                      explosives, including shock sensitive compounds. We also
                      inspected indoor and outdoor hazardous chemical storage areas, as
                      well as buildings and laboratories that contained hazardous
                      chemicals.

FIRE SAFETY           We found that a compressed gas facility that contained numerous
CONCERNS              flammable chemicals lacked a fire extinguisher, as required by
                      OSHA, and a means to summon the fire department, as required by
                      DOE.

                      The compressed gas facility, known as the 12-5 North Yard, is an
                      outdoor 3-sided building surrounded by a fence that also encloses a
                      large area around the building. The facility is also adjacent to a
                      primary road and a populated building containing large quantities
                      of hazardous chemicals. We observed the following flammable
                      compressed gas cylinders stored at the 12-5 North Yard: 6
                      acetylene cylinders, an ethane cylinder, several hydrogen
                      cylinders, and numerous compressed oxygen cylinders. Acetylene,
                      ethane, and hydrogen are highly flammable under pressure.
                      Ethane and hydrogen also readily form explosive mixtures when in
                      contact with air. Compressed oxygen enhances combustion and
                      may increase the risk of fire in flammable materials.




Page 2                                                              Details of Findings
         The Pantex Fire Protection S/RID states that the contractor is
         required to perform fire prevention engineering activities to ensure
         that facilities and processes are provided with the required level of
         fire protection. OSHA 29 CFR 1910.106, “Flammable and
         Combustible Liquids,” states that suitable fire control devices, such
         as portable fire extinguishers, shall be available at locations where
         flammable or combustible liquids or flammable aerosols are
         stored, including outdoor container storage areas. A DOE EH Fire
         Protection Engineer stated that this regulation applied to the
         flammable compressed gases that the OIG identified at the 12-5
         North Yard. Additionally, the Pantex Fire Protection S/RID states
         that fire protection systems and equipment shall be provided to
         detect, suppress, and limit the spread of fires in its facilities, and
         that portable fire extinguishers are maintained and located to
         permit personnel to extinguish incipient fires. DOE Order 420.1,
         “Facility Safety,” states that an approved means to summon the
         fire department shall be provided.

         During our site inspection, we informed BWXT officials of our
         concerns that there were numerous cylinders of flammable
         compressed gases stored at the 12-5 North Yard, and that the
         facility did not have a fire suppression system or a means to notify
         the fire department in the event of a fire. After we raised our
         concerns, BWXT officials advised us that they subsequently
         determined that both were needed and would install a fire
         extinguisher and a telephone at or near the 12-5 North Yard.

         DOE Order 420.1, “Facility Safety,” states that comprehensive,
         documented fire protection self-assessments shall be performed
         and include all aspects of the fire protection program. We noted
         that the applicable Fire Hazards Facility Assessment covering the
         12-5 North Yard was completed by BWXT in February 2005. This
         Assessment indicated that all of the stored gases were inert and
         that no fire suppression systems were required. A DOE Office of
         Environment, Safety and Health (EH) Fire Protection Engineer
         advised us that there is a continuing obligation to ensure that all
         fire hazards are identified and mitigated. The DOE EH Fire
         Protection Engineer also advised that installation of a fire
         extinguisher and telephone are minimal mitigating actions. He
         further advised that a thorough assessment of the storage facility
         could also lead to additional mitigating actions by BWXT.
         Therefore, it may be appropriate for BWXT to assess whether
         additional corrective actions should be taken.




Page 3                                                   Details of Findings
SAFETY WARNING                              We found that safety warning signs were not posted outside
SIGNS                                       several facilities that contained hazardous chemicals such as
                                            flammables and explosives, as required by OSHA and the NFPA.1
                                            These facilities included the High Explosives Synthesis Facility, a
                                            nearby portable storage facility, and the 12-5 North Yard.
                                            Subsequent to our inspection of the portable buildings, we were
                                            told that Pantex posted warning signs on the portable buildings.
                                            Also subsequent to our site visit, a Pantex Division Manager said
                                            that he developed an implementation plan and posted warning
                                            signs on the doors of the High Explosives Synthesis Facility.

                                            The Pantex Occupational Safety and Health and Fire Protection
                                            S/RIDS states that both OSHA and NFPA posting requirements are
                                            applicable to facilities where flammable and other hazardous materials
                                            are present. OSHA posting requirements state that signs or tags shall
                                            be posted to ensure awareness of the hazards present. The NFPA lists
                                            numerous specific posting requirements for facilities where flammable
                                            and other hazardous materials are present. The DOE EH Fire
                                            Protection Engineer stated that these OSHA and NFPA requirements
                                            were applicable and should be followed.

                                            The High Explosives Synthesis Facility contained numerous
                                            hazardous solids, liquids, and gases, including flammables and
                                            explosives. During our site inspection, we observed that a large
                                            sign marked “Danger - Hazardous Operations” was lying on the
                                            ground in back of the building. We also observed that a portable
                                            storage building, which was located about 65 feet beyond the High
                                            Explosives Synthesis Facility, contained flammable chemicals;
                                            however, warning signs were not posted. Further, the 12-5 North
                                            Yard contained flammable and potentially explosive compressed
                                            gas cylinders, but there were no warning signs posted.

                                            BWXT officials told us that the hazardous operations warning sign
                                            on the ground in back of the High Explosives Synthesis Facility had
                                            fallen down from in front of the building “a long time ago.” A
                                            BWXT official said that BWXT planned to re-install the hazardous
                                            operations warning sign in front of the High Explosives Synthesis
                                            Facility. BWXT agreed that warning signs should be posted on the
                                            portable flammable chemicals building as well as on the nearby
                                            acids and bases portable buildings.


1
  The Pantex Occupational Safety and Health S/RID states that signs or tags shall be posted to ensure awareness of the hazards present, and cites
OSHA 29 CFR 1910.145, “Specifications for Accident Prevention Signs and Tags,” and OSHA 1926.200, “Accident Prevention Signs and Tags,”
as the applicable standards. Further, the Pantex Fire Protection S/RID identifies NFPA 30, “Flammable and Combustible Liquids Code,” (which
incorporates NFPA 704, “Identification of the Fire Hazards of Materials for Emergency Response),” and NFPA 55, “Standard for the Storage,
Use, and Handling of Compressed Gases” as applicable. Additionally, NFPA 30 and NFPA 704 are OSHA requirements pursuant to OSHA 29
CFR 1910.6, “Incorporated by Reference.” Thus, these OSHA and NFPA provisions are applicable at Pantex.




Page 4                                                                                                           Details of Findings
EYE WASH AND    We found that an eye wash and safety shower in a hazardous
SAFETY SHOWER   chemicals storage building were not inspected, as required by
                Pantex procedures. When a hazardous chemical is splashed in the eye
                or on the body, decontamination with water from an eyewash or safety
                shower is the standard first aid response to mitigate potential serious
                injury. A Pantex site procedure titled “How to Inspect, Identify,
                Evaluate, and Abate Safety Hazards in or Around Facilities,” required
                Pantex to conduct quarterly inspections of its eyewashes and safety
                showers to ensure their proper function. The Pantex Building
                Facilities Manager acknowledged that they were required to conduct
                the inspections on a quarterly basis. We determined, however, that
                they were not inspected during the last four quarterly safety
                inspections. The eye wash and safety shower were in Building 12-
                118, a large hazardous chemicals storage building with repackaging
                laboratories.

OBSERVATION     We also observed significant discrepancies in the hazardous
                chemicals inventory. For example, the database quantities of
                acetic anhydride, ammonia, dimethyl sulfoxide, and hydrochloric
                acid were significantly different than actual quantities that we
                identified at Pantex Building 11-55.

                As outlined in the chart below, we observed significantly less
                quantities of acetic anhydride, ammonia, and dimethyl sulfoxide in
                the Pantex hazardous chemicals database compared to the actual
                quantities that we identified at Building 11-55. We also observed
                that the database listed significantly more hydrochloric acid
                compared to the actual quantity that we identified at Building 11-55.
                                         Quantities of Hazardous Chemicals Listed in
                                           Pantex Database vs. Actual Quantities

                  Acetic Anhydride          59
                        (gal)                          146                                           Database
                                                             200                                     Actual
                   Ammonia (lbs)                                                         600

                     Dimethyl                    117
                   Sulfoxide (gal)                                  287

                     Hydrochloric                                         346
                      Acid (gal)                 106


                                     0      100         200        300     400   500   600     700




Page 5                                                                                 Details of Findings
               Chemical             Database       Actual
                                                                  Difference
                                    Quantities    Quantities
               Acetic Anhydride     59 gallons    146 gallons     87 gallons
               Ammonia              200 pounds    600 pounds      400 pounds
               Dimethyl Sulfoxide   117 gallons   287 gallons     170 gallons
               Hydrochloric Acid    346 gallons   106 gallons     240 gallons


         Acetic anhydride is flammable and corrosive and is a health
         hazard. Ammonia gas is flammable, corrosive, and a toxic
         inhalation hazard, and can also be fatal if inhaled. Dimethyl
         sulfoxide reacts violently with a number of materials and is an eye,
         skin, and respiratory irritant. Hydrochloric acid is extremely
         corrosive; vapor inhalation can cause serious injury, and ingestion
         can be fatal.

         BWXT officials acknowledged that these discrepancies were a
         concern and that they were taking actions to try to improve the
         accuracy of their inventory. They stated that the centralized
         hazardous chemicals database was antiquated and limited and that
         they were upgrading the computer software. The central database
         is used for compiling an annual inventory of the site’s hazardous
         chemicals, which is an important part of the site’s Emergency
         Planning Hazards Assessment (EPHA). The EPHA is the basis of
         the site Emergency Management Program. Thus, having an
         accurate site inventory of hazardous materials is key to the
         adequacy of the Emergency Planning Hazards Assessment and the
         Emergency Management Plan.

         During our site visit, we were told that Pantex last conducted a
         physical inventory of all its buildings in 1997. A DOE official
         responsible for issuing DOE-wide safety and health policies
         advised that, although there is no specific requirement for the site
         to periodically conduct a physical inventory of all of its hazardous
         chemicals, he considers it to be a best practice. Pantex, however,
         has a 2006 performance measure to conduct a physical inventory
         of all hazardous chemicals. Subsequent to our site visit, we were
         told that BWXT completed a physical inventory of all of the
         hazardous chemicals located at Pantex.

         We believe that upgrading the database and having an accurate
         physical inventory are significant steps towards improving site
         emergency assessment and planning. These actions should
         improve current accuracy of the hazardous chemicals database,
         which in turn, should increase the adequacy and effectiveness of
         emergency assessments and planning at Pantex. Therefore, we


Page 6                                                          Details of Findings
                  believe that conducting periodic physical inventories of hazardous
                  chemicals should be a continuing performance measure and/or site
                  requirement.

RECOMMENDATIONS   We recommend that the Manager, Pantex Site Office, ensures that
                  BWXT:

                  1. Assesses all hazards and conducts fire protection engineering
                     activities to mitigate any hazards on an ongoing basis;

                  2. Posts appropriate safety warning signs at appropriate locations
                     at all facilities that contain hazardous chemicals;

                  3. Inspects all eye wash and safety showers in buildings that
                     contain hazardous chemicals to ensure their proper function;
                     and

                  4. Continues to implement improvements that will enhance the
                     accuracy of the central hazardous chemicals database and
                     considers establishing a requirement to conduct recurring
                     periodic physical inventories of its hazardous chemicals.


MANAGEMENT        The National Nuclear Security Administration (NNSA) agreed
COMMENTS          with the report’s findings and recommendations and directed the
                  contractor to develop a corrective action plan. Management’s
                  comments are provided in their entirety in Appendix B.


INSPECTOR         We found NNSA’s comments to be responsive to our report.
COMMENTS          However, because the comments did not include planned
                  corrective actions with target completion dates, a Management
                  Decision is required.




Page 7                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

SCOPE AND     We interviewed Federal and contractor officials at the Pantex
METHODOLOGY   Plant and DOE officials at DOE Headquarters. We reviewed
              relevant site, DOE-wide, and Government-wide documents. We
              also conducted a physical check of hazardous chemicals at several
              indoor and outdoor storage areas.

              As part of our review, we evaluated BWXT’s implementation of
              the “Government Performance Results Act of 1993.” Specifically,
              we reviewed a performance measure that required BWXT to
              conduct a physical inventory in fiscal year 2006 of all hazardous
              chemicals present.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                               Scope and Methodology
Appendix B
____________________________________________________




_____________________________________________________________________________

Page 9                                                Management Comments
                                                             IG Report No. DOE/IG-0756

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
